                        Follow-Up Review of Accounts
                          Payable Scanning System

                                   July 2004

                     Reference Number: 2004-1C-124




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                          WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                              July 15, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE



       FROM:                   Daniel R. Devlin
                               Assistant Inspector General for Audit (Headquarters Operations
                               and Exempt Organizations Programs)

       SUBJECT:                Follow-Up Review of Accounts Payable Scanning System
                               (Audit #20041C0234)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s accounts
       payable scanning system and related Electronic Data Processing (EDP) internal
       controls, as of March 19, 2004, to assure the contractor’s system is adequate to provide
       for the accuracy and reliability of information being generated by the EDP scanning
       system. The purpose of the examination was to evaluate the implementation, accuracy,
       and effectiveness of the contractor’s corrective action plans and to reassess control risk
       and adequacy of the accounts payable scanning system.
       According to the DCAA, the original review, dated November 5, 2001, of the contractor’s
       accounts payable scanning system disclosed two deficiencies. The contractor agreed
       to implement appropriate actions to correct the cited deficiencies.
       The DCAA opined that the contractor’s current accounts payable scanning system and
       related internal control polices and procedures are adequate. The DCAA considers the
       corrective actions taken by the contractor sufficient to assure the reliability and integrity
       of contractor cost data managed by the system. The review was limited to an
       examination of the corrective actions taken by the contractor. Accordingly, the DCAA
       expresses no opinion on the contractor’s system of internal controls taken as a whole.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
                                          2

If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
